GR-90-98-029
U.S. DEPARTMENT OF JUSTICE
 

Audit Report
 

OFFICE OF COMMUNITY ORIENTED POLICING SERVICES
GRANT TO THE CITY OF OAKLAND POLICE DEPARTMENT CALIFORNIA
GR-90-98-029
JUNE 1998
 
EXECUTIVE SUMMARY
 
The Office of the Inspector General, Audit Division, has completed an audit of one
grant awarded by the U.S. Department of Justice (DOJ), Office of Community Oriented
Policing Services (COPS), to the City of Oakland Police Department (OPD), California. The
OPD received a grant of $1,275,000 to hire or rehire 17 sworn officers under the
Accelerated Hiring, Education, and Deployment Program (AHEAD). The purpose of the
additional officers under the grant program is to enhance community policing efforts. 
In brief, our audit determined that the OPD violated the following grant conditions:

- The OPD did not notify the COPS program of their decision to modify the AHEAD grant
  by hiring only 13 of the 17 officers authorized. The OPD made this decision because it
  could not provide the necessary matching funds. Therefore, the COPS program should
  deobligate $300,000 for the four positions the OPD decided not to fill under this grant
  and put the funds to better use.
- The OPD did not fill sworn officer vacancies timely because the OPD required
  approximately nine months to hire and train new officers and the limited number of academy
  classes conducted by the OPD was inadequate to fill the sworn officer vacancies. The
  problem of filling sworn officer vacancies in a timely manner was further compounded by a
  city imposed hiring freeze in FYs 1995 and 1996.
- The OPD did not have a formal plan to retain the officers hired under the AHEAD
  grant.

#####